APPENDIX

APPENDIX A:

Opinion, No. 20-5755, Sixth
Circuit Court of Appeals, Mar.
19, 2021 ............................................. 1a

APPENDIX B:

Memorandum Opinion and
Order, Criminal Action No.
2: 09-033-DCR, E.D. Ky., June
25, 2020 ........................................... 16a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
____________________
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
No. 20-5755

v.
LAZELLE MAXWELL,
Defendant-Appellant

Appeal from the United States District Court
for the Eastern District of Kentucky at Covington.
No. 2:09-cr-00033-2—Danny C. Reeves, District Judge.
Decided and Filed: March 19, 2021
Before: GUY, SUTTON, and GRIFFIN, Circuit Judges.
____________________
COUNSEL
ON BRIEF: Alison K. Guernsey, UNIVERSITY OF
IOWA COLLEGE OF LAW, Iowa City, Iowa, for
Appellant. Charles P. Wisdom, Jr., John Patrick Grant,
UNITED STATES ATTORNEY’S OFFICE, Lexington,
Kentucky, for Appellee. Henry A. Martin, Michael C.
Holley, FEDERAL PUBLIC DEFENDER’S OFFICE,
Nashville, Tennessee, Stephen Ross Johnson, RITCHIE,
DILLARD, DAVIES & JOHNSON, PC, Knoxville,

2a
Tennessee, Elizabeth B. Ford, Jennifer Niles Coffin,
FEDERAL DEFENDER SERVICES OF EASTERN
TENNESSEE, INC., Knoxville, Tennessee, for Amici
Curiae.
____________________
OPINION
____________________
SUTTON, Circuit Judge. Lazelle Maxwell moved for
a discretionary sentence reduction under the First Step
Act. The district court declined Maxwell’s request, opting
to leave his thirty-year sentence in place. Maxwell
contends that the court abused its discretion. It did not,
and we affirm.
I.
In 2008, a federal grand jury in Lexington, Kentucky
indicted Lazelle Maxwell for conspiring to distribute crack
cocaine and heroin. See 21 U.S.C. § 846. A jury found
Maxwell guilty of both counts.
In sentencing Maxwell, the district court accurately
determined that the crack-cocaine offense at the time
generated a statutory range of 20 years to life and that the
heroin offense generated a range of 10 years to life, 21
U.S.C. § 841(b)(1)(A)–(B). Under the 2009 edition of the
guidelines, the district court treated Maxwell as a career
offender and calculated a discretionary guidelines range
of 30 years to life. U.S.S.G. § 4B1.1. It sentenced Maxwell
to 30 years.
While Maxwell’s direct appeal was pending, Congress
enacted the Fair Sentencing Act of 2010. In an effort to
increase parity between the sentences for crack and

3a
powder cocaine offenses, Congress increased the quantity
of crack cocaine needed to trigger a ten-year mandatory
minimum sentence from 50 grams to 280 grams. Fair
Sentencing Act of 2010, Pub. L. No. 111-220, § 2(a)(1), 124
Stat. 2372, 2372 (2010) (amending 21 U.S.C.
§ 841(b)(1)(A)(iii)). But the change did not help Maxwell
because it did not apply to sentences imposed before the
Act. See United States v. Blewett, 746 F.3d 647, 650 (6th
Cir. 2013) (en banc).
In appealing his conviction and sentence, Maxwell
sought relief on the grounds that his pre-trial
identification should have been suppressed, that the
subsequent in-court identifications should not have been
permitted, and that insufficient evidence linked him to the
crime. Maxwell and his co-defendant also argued that
their sentences were substantively unreasonable. Each
claim fell short. United States v. Shields, 415 F. App’x
692, 704–05 (6th Cir. 2011).
Maxwell sought collateral relief on ineffectiveassistance-of-counsel grounds. See 28 U.S.C. § 2255.
Although the district court denied the motion, we ruled
that his trial attorney violated Maxwell’s Sixth
Amendment right to counsel when he failed to argue that
the two conspiracy counts were multiplicitous. Maxwell
v. United States, 617 F. App’x 470, 472–73 (6th Cir. 2015).
On remand, the district court vacated Maxwell’s heroin
conviction and imposed a thirty-year sentence on the
cocaine conviction alone, leaving his total sentence
unchanged. We affirmed. United States v. Maxwell, 678
F. App’x 395, 397 (6th Cir. 2017).
In 2018, Congress enacted the First Step Act, which
empowers district courts to lower sentences imposed for

4a
crack-cocaine offenses “as if” the 2010 Fair Sentencing
Act (and its lowering of the sentence for this cocaine
offense) had been the law during the original sentencing
hearing. First Step Act of 2018, Pub. L. No. 115-391,
§ 404(b), 132 Stat. 5194, 5222 (2018). Maxwell mailed a
one-page letter to the district court, asking about relief
under the First Step Act. The district court construed the
letter as a request for relief under the Act and denied it.
United States v. Maxwell, No. CR 2:09-033-DCR, 2019
WL 1320045, at *4–5 (E.D. Ky. Mar. 22, 2019). We
reversed the ruling on the ground that Maxwell sought
appointment of counsel, not a merits review, at that point
in the case. United States v. Maxwell, 800 F. App’x 373,
376 (6th Cir. 2020).
On remand, and with the assistance of counsel,
Maxwell moved for a sentence reduction under the First
Step Act. The district court denied his motion and left the
thirty-year sentence in place. United States v. Maxwell,
No. CR 2:09-033-DCR, 2020 WL 3472913, at *4 (E.D. Ky.
June 25, 2020).
II.
The appeal raises two questions: Does the First Step
Act demand a plenary resentencing of a defendant that
accounts for all changes in the law since his original
sentence? Even if that is not the case, does the Act permit
a district court in its discretion to consider intervening
legal developments, such as changes in the careeroffender guidelines, in determining the extent of any
sentence reduction?
A.
The text of the legislation goes a long way to
answering the first question. The First Step Act says in

5a
pertinent part:
A court that imposed a sentence for a
covered offense may, on motion of the
defendant, . . . impose a reduced sentence as
if sections 2 and 3 of the Fair Sentencing
Act . . . were in effect at the time the covered
offense was committed.
First Step Act, § 404(b). A ₃ covered offense₄ amounts
to one affected by the former disparity between sentences
imposed for crack and powder cocaine offenses—what the
Act refers to as a “Federal criminal statute, the statutory
penalties for which were modified by section 2 or 3 of the
Fair Sentencing Act . . . that was committed before
August 3, 2010.” Id. § 404(a). The upshot is that the Act
gives a district court authority to reduce a defendant’s
sentence retroactively to account for the changes
established by the Fair Sentencing Act. But that
authority is discretionary. “Nothing” in the Act “shall be
construed to require a court to reduce any sentence.” Id.
§ 404(c).
With this legislation, Congress created an exception to
the conventional rule that a court “may not modify a term
of imprisonment once it has been imposed.” 18 U.S.C.
§ 3582(c). An exception to that rule says that a “court may
modify an imposed term of imprisonment to the extent
otherwise expressly permitted by statute.”
Id.
§ 3582(c)(1)(B). Taken together, § 3582(c) and the First
Step Act “expressly permitted” the district court to lower
Maxwell’s sentence in its discretion.
None of this seems to divide the United States and
Maxwell. What separates them is a disagreement over
what the district court must do before making that

6a
decision. As Maxwell sees it, the district court must
engage in a plenary resentencing, one that recalculates
the advisory guidelines range according to the law at the
time of the request, here the law in 2020. In Maxwell’s
case, that new calculation would have accounted for
subsequent changes in other areas of the law since his
2010 sentencing, including changes to his career-offender
designation.
Efforts to rewrite the past are not easy. And we
appreciate the appeal of Maxwell’s argument that we
should account for the present in redoing the past. But
that is not what the First Step Act requires, at least not
at the outset when determining the guidelines range that
will form the basis for the reduced sentence. It tells the
court to alter just one variable in the original sentence, not
all variables. It asks the court to sentence Maxwell “as if”
the crack-cocaine sentencing range had been reduced
under the Fair Sentencing Act of 2010, not as if other
changes had been made to sentencing law in the
intervening years.
We have considerable company in following the
relevant language—the Act’s “as if” directive and
§ 3582(c)’s prohibition on modifying sentences unless
“expressly permitted”—to its natural end. Several
circuits have rejected the idea that a First Step Act
request requires the trial court to engage in a plenary
resentencing hearing. From their vantage point, the
district court looks to the law as it existed at the time the
defendant committed the offense, save for one change:
the Fair Sentencing Act’s amendments. That’s the
reasoning of the Ninth Circuit: “Because the First Step
Act asks the court to consider a counterfactual situation
where only a single variable is altered, it does not

7a
authorize the district court to consider other legal
changes that may have occurred after the defendant
committed the offense.” United States v. Kelley, 962 F.3d
470, 475 (9th Cir. 2020) (refusing to account for changes in
career-offender precedents). And the reasoning of the
Fifth Circuit: “Congress did not intend that other
changes were to be made as if they too were in effect at
the time of the offense.” United States v. Hegwood, 934
F.3d 414, 418 (5th Cir. 2019). And the reasoning of the
Eleventh Circuit: “[T]he district court . . . is not free to . . .
reduce the defendant’s sentence on the covered offense
based on changes in the law beyond those mandated by
sections 2 and 3 [of the Fair Sentencing Act].” United
States v. Denson, 963 F.3d 1080, 1089 (11th Cir. 2020).
And the reasoning of the Second Circuit: “We therefore
hold that the First Step Act does not entail a plenary
resentencing, and that it does not obligate a district court
to recalculate an eligible defendant’s Guidelines range,
except for those changes that flow from Sections 2 and 3
of the Fair Sentencing Act of 2010, when considering as a
discretionary matter whether (or by how much) to grant
a sentence reduction.” United States v. Moore, 975 F.3d
84, 92 (2d Cir. 2020). Under this approach, there is no
requirement at the outset to account for intervening legal
developments in recalculating the guidelines.
We take just one circuit, the Fourth Circuit, to require
district courts to engage in a plenary resentencing under
the First Step Act that must account for all changes in law
since the original sentencing, not just the changes
established by the Fair Sentencing Act. In a divided
decision, it ruled that the district court “should recalculate
[the defendant’s] Guidelines range without the careeroffender enhancement” and should account for all

8a
intervening legal developments in making the new
calculation. United States v. Chambers, 956 F.3d 667, 675
(4th Cir. 2020). But see id. at 676 (Rushing, J., dissenting)
(“Section 404 . . . permits a district court to reduce a final
sentence to account for the statutory changes wrought by
Sections 2 and 3 of the Fair Sentencing Act. It does not
expressly permit a district court to reduce a sentence
based on any other intervening changes in the law.”).
Maxwell insists that we have already taken sides in
this debate and that we embraced the Fourth Circuit’s
approach in United States v. Boulding, 960 F.3d 774 (6th
Cir. 2020). But that is not true. Boulding does not hold,
or for that matter say, that district courts must engage in
a plenary recalculation of the guidelines range at the
outset, requiring the court to redetermine the guidelines
range based on all intervening legal developments, not
just passage of the Fair Sentencing Act. Rather, because
Boulding’s original guidelines range was dictated by the
statutory mandatory minimum sentence of life in prison,
it was the Fair Sentencing Act, not other intervening legal
developments, that required a recalculation of an
amended guidelines range. Id. at 776–78. Boulding no
doubt speaks to a court’s discretion to consider
intervening legal developments when responding to a
petition under the First Step Act, id. at 784, a point to
which we will return in a moment. But it does not require
a plenary resentencing, an approach consistent with
decisions before and after it. In United States v.
Foreman, decided before Boulding, we observed that the
defendant’s career-offender argument “presupposes a
plenary resentencing and career-offender determination
to which he was never entitled.” 958 F.3d 506, 515 (6th
Cir. 2020). We said the same thing in Smith. United

9a
States v. Smith, 958 F.3d 494, 499 n.3 (6th Cir. 2020)
(noting that the district court did not abuse its discretion
in declining to consider other intervening legal
developments in ruling on a First Step Act motion).
B.
To say that the First Step Act does not require
plenary resentencing hearings is not to say that it
prohibits trial judges from considering intervening legal
and factual developments in handling First Step Act
requests. The Act’s “as if” directive tells us some things,
but not all things, about how to handle these petitions and
about the extent to which a sentencing judge must
separate the present from the past in ruling on these
motions. A nagging question remains: How could a
district court exercise its discretion in deciding whether
to make a First Step Act reduction without considering
the § 3553(a) factors? And if a court may consider these
factors in making that decision, why can’t it account for
future dangerousness and up-to-date notions about the
risk of recidivism of this defendant, including his careeroffender status under the law today?
That indeed seems to be the line our cases have drawn.
While they do not require district courts to conduct
plenary resentencing hearings in response to a petition
under the First Step Act, they permit courts to consider
subsequent developments in deciding whether to modify
the original sentence and, if so, in deciding by how much.
As we put it in United States v. Ware: Any “consideration
of the impact that Apprendi would have had on [the
defendant’s] statutory sentencing range is a factor that
the district court may consider when deciding whether, in
its discretion, to grant relief.” 964 F.3d 482, 488 (6th Cir.
2020). We said something similar in Foreman. Even as

10a
we noted that the defendant’s career-offender argument
“presupposes a plenary resentencing and career-offender
determination to which he was never entitled,” we
intimated that the court could consider this intervening
development in deciding how to exercise its discretion.
Foreman, 958 F.3d at 515 & n.5. So too in United States
v. Lawson:
When “deciding whether to grant a
defendant’s motion under the First Step Act, the district
court may consider⁻as simply a ‘factor’ under 18 U.S.C.
§ 3553⁻that the defendant was sentenced based in part on
what would now be considered a legal mistake.” 824 F.
App’x 411, 412 (6th Cir. 2020). In drawing this line, we
have permitted consideration of a defendant’s conduct in
prison, e.g., United States v. Williams, 972 F.3d 815, 817
(6th Cir. 2020); United States v. Allen, 956 F.3d 355, 357–
58 (6th Cir. 2020), as well as changes in our precedents,
Ware, 964 F.3d at 488–89; see also United States v.
Richardson, 960 F.3d 761, 765 (6th Cir. 2020) (noting that
the district court considered “the defendant’s history and
characteristics (including his post-incarceration conduct)”
when deciding whether to grant relief); United States v.
Ruffin, 978 F.3d 1000, 1009 (6th Cir. 2020) (noting that the
district court “pointed out how prison authorities had
disciplined Ruffin ‘as recently as July 2019 for possessing
an unauthorized item and being insolent to staff’”); United
States v. Martin, 817 F. App’x 180, 183 (6th Cir. 2020)
(“The district court is permitted to consider postconviction conduct, such as Martin’s good behavior in the
Bureau of Prisons and the fact that Martin no longer
qualifies as a career offender.”); United States v. Butler,
805 F. App’x 365, 369 (6th Cir. 2020) (noting that “the
district court considered some § 3553(a) factors and some
of his post-conviction rehabilitation efforts”).

11a
Most other circuits follow a similar approach. The
Second Circuit divides First Step Act petitions into two
steps. The district court initially should recalculate the
guidelines range using only the First Step Act’s
amendments and not any other changes since the
defendant’s original sentence. In its words: The Act
“issues no directive to allow re-litigation of other
Guidelines issues—whether factual or legal—which are
unrelated to the retroactive application of the . . . Act.”
Moore, 975 F.3d at 91. This threshold recalculation thus
does not account for other developments, including
intervening career-offender decisions. Id. at 89–92. After
that, however, the Second Circuit allows district courts, in
exercising their discretion under the Act, to consider
intervening precedential and factual developments in
balancing the § 3553(a) factors. Id. at 92 n.36 (“We hold
only that the First Step Act does not obligate a district
court to consider post-sentencing developments. We
note, however, that a district court retains discretion to
decide what factors are relevant as it determines whether
and to what extent to reduce a sentence.”); see also United
States v. Ortiz, 832 F. App’x 715, 718 (2d Cir. 2020).
In considering a criminal defendant’s dangerousness
to the community, one of the § 3553(a) factors that a
district court may balance in handling a First Step Act
request, the Seventh Circuit allows the court to look at the
point in real time. Thus: “[T]oday’s Guidelines may
reflect updated views about the seriousness of a
defendant’s offense or criminal history. So, a defendant
may . . . present evidence of his post-sentencing conduct
in support of a reduced sentence. And a court may look to
§ 3553(a)’s familiar framework when assessing whether to
impose a reduced sentence.” United States v. Shaw, 957

12a
F.3d 734, 742 (7th Cir. 2020).
The Tenth Circuit likewise notes that a trial court’s
decision to recalculate the range to account for other
changes in the law is discretionary: The First Step Act
“gives district courts discretion to reconsider whether the
defendant would still be designated as a career offender
in light of ‘subsequent decisional law that clarifies (not
amends) the related career offender provision at issue.’”
United States v. Robertson, No. 20-6014, 2020 WL
7333449, at *2 (10th Cir. Dec. 14, 2020) (quotation
omitted); see also United States v. Crisp, No. 20-5040,
2021 WL 508492, at *2 (10th Cir. Feb. 11, 2021). And it
permits this approach even after determining that a
“correct Guideline range calculation is paramount, and
the district court can use all the resources available to it
to make that calculation.” United States v. Brown, 974
F.3d 1137, 1145 (10th Cir. 2020); see also United States v.
Moore, 963 F.3d 725, 727 (8th Cir. 2020) (“When reviewing
a section 404 petition, a district court may, but need not,
consider the section 3553 factors.”).
All told, our decisions and most of our sister circuits
permit defendants to raise these intervening
developments, such as changes to the career-offender
guidelines, as grounds for reducing a sentence, and they
permit (but do not require) district courts to consider
these developments in balancing the § 3553(a) factors and
in deciding whether to modify the original sentence.
One might fairly ask what difference all of this makes.
If a court ultimately may consider intervening legal
developments, why does it make a difference whether the
court considers them through a plenary resentencing or
later? The key impact is that a court, in addressing these
arguments by a defendant, has discretion not to

13a
recalculate the guidelines to account for intervening legal
developments. Given the First Step Act’s goal of
lessening undue disparities in criminal sentencing, a court
could reasonably adopt the position that allowing inmates
who qualify for resentencing to benefit from other
changes in the legal landscape cuts against that laudable
aim by denying this same benefit to individuals convicted
of uncovered offenses. That’s the thrust of our decision in
Ware. The district court in that case, we held, did not
abuse its discretion when it declined to reduce a sentence
because it “remained concerned about sentencing
disparities, as other defendants who were similarly
sentenced for powder-cocaine offenses . . . could not
benefit from retroactive application” of intervening case
law. Ware, 964 F.3d at 486. One last point: We need not
decide today whether the First Step Act permits a district
court to modify a sentence below the changes ushered in
by the Fair Sentencing Act.
C.
Gauged by this measuring stick, the district court’s
decision should be affirmed. The court first deemed
Maxwell eligible for relief under the Act. It next
calculated Maxwell’s sentencing range as the law existed
at the time of his original offense, accounting for the new
variable created by the Fair Sentencing Act. This new
range reduced Maxwell’s mandatory minimum from 20 to
10 years.
The court next acknowledged Maxwell’s argument
that his guidelines range would be even lower today
thanks to intervening changes affecting his careeroffender status. It recognized its discretion to consider
Maxwell’s sentencing range under the 2018 edition of the
guidelines when it weighed the § 3553(a) factors. And it

14a
said that it would consider “the factors outlined in 18
U.S.C. § 3553(a), including the defendant’s amended
sentencing guidelines range, and any relevant postsentencing conduct.” R.383 at 4.
Operating within its broad discretion, the court
considered and rejected each of Maxwell’s arguments in
support of a reduced sentence. It weighed the severity of
Maxwell’s criminal conduct along with his leadership role
in the conspiracy, criminal history, and likeliness of
recidivism. It balanced those factors against his steps
toward rehabilitation, completion of educational courses,
and the lack of any prison incidents. That balancing led
the court to stick with a thirty-year sentence. That was
not an abuse of discretion on this record. As we have held
before, a district court could reasonably reject reliance on
later legal changes unrelated to the First Step Act out of
“concern regarding disparities with other similarly
situated defendants.” Ware, 964 F.3d at 489.
Contrary to Maxwell’s claims, the district court
adequately considered Maxwell’s likelihood of recidivism,
granted sufficient weight to his post-sentence
rehabilitation, and did not need to explicitly address
Maxwell’s arguments that he would not be a danger to the
community if released given his age and his health
struggles. The court noted that Maxwell did not have any
serious incidents while in prison and that he had
“completed various educational courses.” R.383 at 8. And
it commended Maxwell for taking “steps toward
rehabilitation.” Id. But in balancing these considerations,
the court found that Maxwell’s “efforts d[id] not warrant
a sentence reduction when considered in conjunction with
the other factors.” Id. The court found that Maxwell was
a likely recidivist, as he “had been involved in serious

15a
criminal activity for the majority of his adult life,” and his
“long pattern of criminal conduct exhibits a danger to the
public and a lack of respect for the law.” Id. at 7. It is
clear that the court reasoned through Maxwell’s
arguments and acted well within its discretion in
concluding that “a sentence of 360 months’ imprisonment
remains sufficient, but not greater than necessary, to
meet all of the goals and objectives of 18 U.S.C. § 3553.”
Id. at 8. The law does not require courts to expressly
rebut each argument. See United States v. Coleman, 835
F.3d 606, 616 (6th Cir. 2016); United States v. Collington,
461 F.3d 805, 809 (6th Cir. 2006). For all of these reasons,
no error, whether procedural or substantive, occurred
when the district court denied Maxwell’s motion for a
discretionary sentence reduction under the First Step
Act.
We affirm.

16a
APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
NORTHERN DIVISION
(at Covington)
UNITED STATES OF
AMERICA,
Plaintiff,
V.
LAZELLE MAXWELL,

)
)
)
)
)
)
)
)
)
)

Criminal Action
No. 2: 09-033-DCR
MEMORANDUM
OPINION AND
ORDER

Defendant.
*** *** *** ***
Defendant Lazelle Maxwell is serving a 360-month
sentence following his 2009 conviction for conspiring to
distribute and possessing with the intent to distribute 50
grams or more of a mixture or substance containing
cocaine base. He has now filed a motion for a sentence
reduction pursuant to the section 404 of the First Step Act
of 2018. [Record No. 373] Having considered all relevant
factors, including those listed in 18 U.S.C. § 3553(a), the
Court concludes that a sentence reduction is not
appropriate. Therefore, Maxwell’s motion will be denied.
I.
In June 2009, a federal grand jury in Lexington,
Kentucky indicted Maxwell and others for conspiring to
distribute and possessing with the intent to distribute 50
grams or more of a mixture or substance containing

17a
cocaine base (Count 1) and conspiring to distribute and
possessing with the intent to distribute 100 grams or more
of a mixture or substance containing heroin (Count 2).
[See Record No. 65 (Superseding Indictment).] Maxwell
proceeded to trial and a jury convicted him of both counts
on September 23, 2009. On January 11, 2010, he was
sentenced to 240 months’ imprisonment on Count 1 and
120 months’ imprisonment on Count 2, to be served
consecutively, for a total term of 360 months. [Record No.
208]
Maxwell’s conviction and sentence were affirmed on
appeal. However, Maxwell later succeeded on a 28 U.S.C.
§ 2255 claim challenging his trial attorney’s failure to
object to the conspiracy charges as multiplicitous. See
Maxwell v. United States, 617 F. App’x 470, 473 (6th Cir.
2015). The United States Court of Appeals for the Sixth
Circuit remanded the matter with instructions to vacate
Maxwell’s conviction on one of the two counts and
resentence him on the remaining count. Id. Upon
remand, this Court vacated the conviction on Count 2 and
resentenced Maxwell to 360 months’ imprisonment on
Count 1. [Record No. 295] The Sixth Circuit affirmed this
sentence on March 3, 2017. United States v. Maxwell, 678
F. App’x 395 (6th Cir. 2017).
II.
At the time of Maxwell’s original sentencing, 50 grams
of a mixture or substance containing cocaine base was the
minimum quantity required to trigger a ten-year
mandatory minimum sentence under 18 U.S.C.
§ 841(b)(1)(A), but Maxwell was subject to a 20-year
mandatory minimum sentence under that provision
because he had a prior conviction for a felony drug
offense. Id.

18a
The 2009 edition of the United States Sentencing
Guidelines Manual (“U.S.S.G.”) was used in determining
Maxwell’s advisory guidelines range. Maxwell was
assigned a base offense level of 34 because he was
responsible for 420 grams of crack cocaine and 560 grams
of heroin. See U.S.S.G. § 2D1.1(c). He received a fourlevel adjustment based on his leadership role in the
conspiracy, resulting in a total offense level of 38.1 See
U.S.S.G. § 3B1.1(a). As a career offender under U.S.S.G.
§ 4B1.1, Maxwell’s criminal history category was VI. This
resulted in a guidelines range of 360 months to life. As
explained above, Maxwell was sentenced at the bottom of
that range.
The Fair Sentencing Act of 2010 (“FSA”) was signed
into law on August 3, 2010. Section 2 of the FSA amended
21 U.S.C. § 841, increasing the amount of cocaine base
required to trigger mandatory minimum sentences. Pub.
L. 111-220 (Aug. 3, 2010). It now takes 280 grams of
cocaine base (rather than 50 grams) to trigger the
mandatory
minimum
penalties
described
in
§ 841(b)(1)(A).
However, the FSA did not apply
retroactively to defendants like Maxwell who were
sentenced before the statute was enacted. United States
v. Tillman, 511 F. App’x 519, 521 (6th Cir. 2013) (citing
Dorsey v. United States, 567 U.S. 260 (2012)).
The First Step Act of 2018 (“the 2018 Act”) was signed
into law on December 21, 2018. Pub. L. 115-391 (Dec. 21,
2018). Section 404 of the 2018 Act allows district courts to
apply the FSA retroactively, such that the court may
impose a reduced sentence as if section 2 of the FSA was
in effect at the time the covered offense was committed.
Maxwell’s offense level under U.S.S.G. § 4B1.1 would have been 37,
but the greater offense level of 38 applied.

1

19a
The Court is not required to reduce a defendant’s
sentence even if the defendant is eligible for a sentence
reduction under the 2018 Act. See § 404(c).
III.
Maxwell is eligible for relief under section 404 of the
2018 Act. See United States v. Boulding, 960 F.3d 774,
2020 WL 2832110, at *6 (6th Cir. June 1, 2020) (holding
that eligibility for resentencing under the First Step Act
turns on the statute of conviction alone). The minimum
statutory penalty for his crime of conviction was modified
by the FSA, and none of the 2018 Act’s other limitations
apply to him. See § 404(c) (court may not entertain a § 404
motion if the sentence was previously imposed or reduced
in accordance with §§ 2 and 3 of FSA or if a motion under
§ 404 was previously denied after complete review on the
merits).
But while Maxwell is eligible for a sentence reduction,
he is not entitled to it and reducing his sentence would not
be appropriate in this case. Defendants seeking a
sentence reduction under the 2018 Act are not entitled to
a de novo resentencing. See Boulding, 2020 WL 2832110,
at *7. Instead, in determining whether to modify a
defendant’s sentence, the court considers the factors
outlined in 18 U.S.C. § 3553(a), including the defendant’s
amended sentencing guidelines range, and any relevant
post-sentencing conduct. See United States v. Flowers, –
F.3d–, 2020 WL 3428073, at *5 (6th Cir. June 23, 2020);
United States v. Allen, 956 F.3d 355, 358 (6th Cir. 2020).
The Court must then ensure that the sentence is
“sufficient but not greater than necessary to achieve the
purposes of sentencing.” Flowers, 2020 WL 3428073, at
*5.

20a
The FSA reduced the mandatory minimum penalty for
Maxwell’s conviction from 20 years’ imprisonment to 10
years’ imprisonment. Compare 21 U.S.C. § 841(b)(1)(A)
(effective Apr. 15, 2009), with 21 U.S.C. § 841(b)(1)(B)
(effective Aug. 3. 2010). However, Maxwell was sentenced
to 360 months’ imprisonment—the bottom of his
guidelines range, but a full 10 years greater than the
mandatory minimum. Put simply, this is not a case in
which the Court believed that a lower sentence was
appropriate but was unable to impose it because of the
statutory mandatory minimum in effect at the time of
sentencing.
Having considered the factors discussed in Flowers
and Allen, the Court remains persuaded that the original
sentence is appropriate. Maxwell was charged with a
conspiracy involving 50 grams or more of cocaine base, as
that is what § 841(b)(1)(A) required at the time. However,
the Court determined at sentencing that Maxwell was
responsible for nearly a kilogram of controlled
substances, 560 grams of which were heroin.
Maxwell contends that the Court should recalculate
his guidelines range without considering him a career
offender under U.S.S.G. § 4B1.1. Specifically, he argues
that the instant conspiracy offense is not a qualifying
“controlled substance offense” under United States v.
Havis, 927 F.3d 382 (6th Cir. 2019). He also asserts that
his prior conviction for fleeing a police officer in violation
of Michigan law is no longer a crime of violence as defined
under the current version under U.S.S.G. § 4B1.2.
Maxwell raised the latter argument when his case was
remanded for resentencing in 2015, and the Court
concluded that it would have imposed a sentence of 360
months even if Maxwell were not deemed a career

21a
offender. [See Record Nos. 302, 311]
While the Sixth Circuit has authorized sentencing
courts to consider “all relevant factors,” it has made clear
that plenary resentencing is not required. Boulding, 2020
2832110, at *7. There is nothing in the text of the 2018 Act
suggesting that district courts must reevaluate these
sorts of determinations in considering whether to grant a
defendant’s motion for a sentence reduction. See United
States v. Kelley, —F.3d—, 2020 WL 3168518 (9th Cir.
June 15, 2020) (observing that the 2018 Act “asks the
court to consider a counterfactual situation where only a
single variable is altered [and] does not authorize the
district court to consider other legal changes that may
have occurred after the defendant committed the offense);
see also United States v. Hegwood, 934 F.3d 414, 419 (5th
Cir. 2019) (district court imposes sentence under section
404 “as if all the conditions for the original sentence were
again in place with the one exception;” court did not err in
continuing to apply career-offender enhancement). But
see United States v. Chambers, 956 F.3d 667 (4th Cir.
2020) (holding that a guidelines error deemed retroactive
must be corrected in a First Step Act resentencing).
While such legal changes may be considered as part of
a § 3553(a) analysis, allowing cocaine-base offenders to
benefit automatically from otherwise non-retroactive
changes in the law may have unwarranted results. As the
Kelley Court observed, “the point of the Fair Sentencing
Act was to lessen the disparity between sentences for
crack cocaine offenses and sentences for powder cocaine
offenses.” Id. at *6. And allowing these types of
challenges in a § 404 proceeding “would put defendants
convicted of crack cocaine offenses in far better position
that defendants convicted of other drug offenses: The

22a
crack cocaine defendants could have their career offender
statuses reevaluated, and be eligible for other positive
changes in their Guidelines calculations, while other
criminal defendants would be deprived of such a benefit.”
Id.
When resentencing Maxwell in 2015, the Court
acknowledged that his base offense level would be 32
under the 2015 edition of the Guidelines Manual. After
four levels were added under § 3B1.1(a) to account for
Maxwell’s role in the offense, an offense level of 36
resulted. Assuming, arguendo, that the career offender
enhancement did not apply, 36 was the total offense level.
Applying the 2015 Guidelines, Maxwell would have only
six criminal history points, resulting in a criminal history
category of III, and a guidelines range of 235 to 293
months of imprisonment.2 [Record No. 302, p. 27]
Maxwell now reasserts these same arguments, but
also contends that his base offense level should be reduced
to 30 based on amendments to the drug equivalency tables
affecting cocaine base. See U.S.S.G. 2D1.1, app. n. 8(D).
[Record No. 373] He argues that, with a total offense level
of 34 and a criminal history category of III, the applicable
guidelines range is 188 to 235 months’ imprisonment.
Maxwell seeks a plenary resentencing, which is not
contemplated under the First Step Act. Consistent with
its prior decision, the Court declines to reduce Maxwell’s
sentence based on these changes in the Guidelines
manual. As previously noted, the criminal history section
Maxwell received two criminal history points under U.S.S.G.
§ 4A1.1(e) because the instant offense was committed less than two
years after his release from custody for his 1999 conviction for fleeing
a police officer. The Guidelines were amended in 2010 to eliminate
consideration of recency points under this provision.

2

23a
in Maxwell’s PSR was far from an overrepresentation of
his prior criminal activity. Maxwell had been involved in
serious criminal activity for the majority of his adult life.
Beginning at the age of 18, he was convicted of aggravated
drug trafficking and fleeing from a police officer; he
served substantial prison sentences for these crimes. Due
to the age of these offenses, Maxwell was not assessed any
criminal history points for them in his PSR.
Maxwell was involved in three separate bank
robberies between February 1, 1993, and February 12,
1993. He pleaded guilty to one count of bank robbery in
the United States District Court for the Eastern District
of Michigan. He was released from custody in 1997, but
violated the terms of his supervised release in 1999 when
he was convicted of fleeing from a police officer. Maxwell
argues that the 1999 conviction for fleeing from a police
officer is no longer a crime of violence, but the Court notes
for purposes of this analysis that his particular offense
involved a car chase with a substantial quantity of drugs
and firearms.
As this Court has explained, the
defendant’s long pattern of criminal conduct exhibits a
danger to the public and a lack of respect for the law.
The Court finds that its previous analysis of the
remaining § 3553(a) factors remains accurate. With
respect to the nature and circumstances of the instant
offense, the defendant was involved in significant drug
trafficking activities, not because he had an addiction, but
simply to make a profit. [Record No. 302, p. 41] He played
a leadership role in the conspiracy, directing the actions
of a various people who distributed large quantities of
cocaine base and heroin. The Court has noted that a
lengthy sentence was (and is) needed to reflect the
seriousness of the crime and to provide just punishment

24a
for the offense, as well as to promote specific and general
deterrence. Id. at p. 45.
Maxwell reports that he has not had any “serious”
incident reports and has provided documentation
indicating that he has completed various educational
courses. While the Court commends Maxwell’s steps
toward rehabilitation, these efforts do not warrant a
sentence reduction when considered in conjunction with
the other factors. See Flowers, 2020 WL 4428073, at *6
(concluding that district court did not err in finding that
defendant’s postconviction behavior did not warrant a
change in his original sentence). Consistent with the
Court’s previous decisions, a sentence of 360 months’
imprisonment remains sufficient, but not greater than
necessary, to meet all of the goals and objectives of 18
U.S.C. § 3553. A lesser sentence would be insufficient to
meet the statutory factors.
Accordingly, it is hereby
ORDERED that the defendant’s motion for a
sentence reduction pursuant to the First Step Act of 2018
[Record No. 373] is DENIED.
Dated: June 25, 2020.
[SEAL] /s/ Danny C. Reeves, Chief Judge
United States District Court
Eastern District of Kentucky

